    Report No. D2008-129                                 September 10, 2008




     Acquisition of the Army Airborne Surveillance,
   Target Acquisition, and Minefield Detection System




This special version of the report has been revised to omit For Official Use Only information.
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AIMO                          Aircraft Integrated Maintenance Operations
ASTAMIDS                      Airborne Surveillance, Target Acquisition, and Minefield
                                 Detection System
CCS                           Close Combat Systems
CPD                           Capability Production Document
DCMA                          Defense Contract Management Agency
FCS                           Future Combat Systems
FF UAS                        Future Force Unmanned Aircraft Systems
ISR                           Intelligence, Surveillance, and Reconnaissance
LOD                           Letter of Delegation
LRIP                          Low-Rate Initial Production
MOA                           Memorandum of Agreement
PEO                           Program Executive Officer
RSTA/LD                       Reconnaissance, Surveillance, Target Acquisition, and
                                 Laser Designation
RUS                           Robotic and Unmanned Sensors
TRADOC                        Training and Doctrine Command
                                    INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                        400 ARMY NAVY DRIVE
                                   ARLINGTON, VIRGINIA 22202-2884




                                                                                September 10, 2008

   MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
                  AUDITOR GENERAL, DEPARTMENT OF THE ARMY


   SUBJECT: Report on the Acquisition ofthe Army Airborne Surveillance, Target Acquisition,
            and Minefield Detection System (Report No. D-2008-129)

    We are providing this report for your information and use. We considered your comments on
    a draft of this report when preparing the final report.

    Comments on a draft of this report conformed to the requirements of DoD Directive 7650.3
    and left no unresolved issues. Therefore, we do not require any additional comments.

    We appreciate the courtesies extended to the staff. Please direct questions to Mr. John E.
    Meling at (703) 604-9091 (DSN 664-9091) or Mr. Harold C. James at (703) 604-9088
    (DSN 664-9088). If you desire, we will provide a formal briefing on the results.




                                        Richard B. Jolliffe
                                        Assistant Inspector General
                                        Acquisition and Contract Management




This special version of the report has been revised to omit For Official Use Only information.
This Page Left Blank Intentionally




                ii
     Report No. D-2008-129 (Project No. D2007-D000AE-0244.000)                 September 10, 2008


               Results in Brief: Acquisition of the Army
               Airborne Surveillance, Target Acquisition,
               and Minefield Detection System

What We Did                                             What We Recommend
We reviewed the Army’s preparation of the               The Assistant Secretary of the Army
Airborne Surveillance, Target Acquisition, and          (Acquisition, Logistics, and Technology) direct
Minefield Detection System (ASTAMIDS)                   Army acquisition managers to better define
program for the low-rate initial production             working relationships in agreements for
decision program review. Additionally, because          developing ASTAMIDS as part of FCS.
ASTAMIDS will provide sensor data to the
Army’s Future Combat Systems (FCS), we                  We made no recommendations to the Director,
reviewed the working relationships between the          Accelerated Capabilities Development or the
ASTAMIDS acquisition manager and the                    Project Manager, Close Combat Systems
acquisition managers developing FCS.                    because the director took responsive action to
                                                        begin development of a capabilities production
What We Found                                           document. Additionally, the project manager
Army acquisition managers did not fully use             signed an agreement with the Defense Contract
memoranda of agreement to define the current            Management Agency to allow the agency to
working relationships needed to develop                 oversee contractor development of ASTAMIDS.
ASTAMIDS as part of the FCS system-of-
systems. This made it more difficult for                Client Comments and Our
acquisition managers to resolve multiple                Response
technical, schedule, and funding requirements           The Deputy for Acquisition and Systems
gaps between ASTAMIDS and FCS.                          Management, responding for the Assistant
                                                        Secretary of the Army (Acquisition, Logistics,
The Army Director, Accelerated Capabilities             and Technology), agreed with our
Developments had not begun to develop the               recommendations and planned responsive
capability production document needed to                corrective actions.
support the ASTAMIDS low-rate initial
production decision program review planned for
March 2009. The capability production
document is needed to support effective and
efficient planning, funding, and execution of the
program.

The Project Manager, Close Combat Systems
did not work with the Defense Contract
Management Agency to develop a
memorandum of agreement to allow the agency
to provide effective oversight of contractor
development of ASTAMIDS.                                ASTAMIDS is a Complementary System to
                                                        the Army’s Future Combat Systems


                                                    i
 Report No. D-2008-129 (Project No. D2007-D000AE-0244.000)          September 10, 2008

Recommendations Table
       Client Comments              Recommendations                 No Additional
                                   Requiring Comment            Comments Required
Assistant Secretary of the Army                              A.1., A.2.a., A.2.b., and
(Acquisition, Logistics, and                                 A.2.c.
Technology)




                                         ii
Table of Contents

Results in Brief                                                            i

Introduction

       Objectives                                                           1
       Background                                                           1
       Overall Assessment                                                   2

Finding A. Updating Memoranda of Agreement to Define the Current Working
            Relationships Between the ASTAMIDS and the FCS Programs         3

       Recommendations, Client Comments, and Our Response                   9

Finding B. Defining Capability Requirements                                11

       Client Actions During the Audit                                     13

Finding C. Establishing Defense Contract Management Agency Support
             Responsibilities                                              15

       Client Actions During the Audit                                     17

Appendices

       A. Scope and Methodology                                            19
           Review of Internal Controls                                     19
           Prior Coverage                                                  20
       B. Background Information                                           21
       C. Army Training and Doctrine Command Client Actions to Define
           Capability Requirements                                         24

Client Comments

       Department of the Army                                              25
       Defense Contract Management Agency                                  28




                                         1
This Page Left Blank Intentionally




                1
Introduction
Objectives
The audit objective was to evaluate the overall management of the Army Airborne
Surveillance, Target Acquisition, and Minefield Detection System (ASTAMIDS)
program. Because the program was in the system development and demonstration phase
of the acquisition process, we determined whether management was effectively preparing
the program for the low-rate initial production (LRIP) decision program review. See
Appendix A for a discussion of the audit scope and methodology.

Background
The ASTAMIDS program was in the systems development and demonstration phase of
the acquisition process. The Product Manager, Countermine and Explosive Ordnance
Disposal and the Program Manager, Close Combat Systems (CCS) were developing
ASTAMIDS in preparation for the LRIP decision program review planned for
March 2009.

Mission and System Description
ASTAMIDS is an intelligence, surveillance, and reconnaissance sensor payload that will
operate from the Class IV MQ-8B Fire Scout Unmanned Aerial Vehicle (the Fire Scout)
as part of the Future Combat Systems (FCS). As such, the Army designated the
ASTAMIDS program as an FCS complementary program. The contract with The Boeing
Company, the lead system integrator for FCS, defines complementary programs as
programs that are available to meet the functionality and performance of the FCS system-
of-systems contract specifications, but that are neither developed nor provided as part of
the lead system integrator effort. ASTAMIDS will help meet the FCS functionality and
performance specifications for sensor data that will provide the FCS (Brigade Combat
Team) with timely and accurate situational awareness information.

ASTAMIDS, which consists of a multiple-mission and multiple-mode sensor package,
will enhance situational awareness by providing the FCS Brigade Combat Team
commanders with day and night minefield and obstacle detection for safe mobility and
reconnaissance, surveillance, target acquisition, and laser designation (RSTA/LD)
capabilities. In the detection mode, ASTAMIDS will automatically detect minefields and
obstacles and process and send digital imagery to operators. In the RSTA/LD mode,
ASTAMIDS will collect and provide imagery of sufficient quality and resolution to
perform detection, recognition, identification, and tracking of combat targets by external
Aided Target Recognition components. In addition to specific support to FCS,
ASTAMIDS will support the Army’s battle space awareness and safe mobility functions
through updates on combat targets, unit dispositions, and minefield and obstacle
impediments to maneuvers. Appendix B provides additional information on
ASTAMIDS, including program history, system description, and illustrations of the
ASTAMIDS payload and installation on the Fire Scout.



                                            1
Program Management
The Product Manager, Countermine and Explosive Ordinance Disposal was developing
ASTAMIDS for the Project Manager, CCS and the Program Executive Officer (PEO) for
Ammunition. Additionally, because ASTAMIDS is a complementary program to the
Army’s FCS program, the PEO for Ammunition and the Project Manager, CCS are
collaborating with the Program Manager, FCS (Brigade Combat Team) and his staff in
the development of ASTAMIDS. Recognizing that ASTAMIDS’ successful integration
and interoperability with the FCS program is dependent on a clear understanding of needs
and expectations between their programs, the PEO for Ammunition, the PEO for Ground
Combat Systems (now Program Manager, FCS [Brigade Combat Team]), and their staffs
established memoranda of agreement (MOA) between their offices as well as with other
Army program and product offices contributing to the development of FCS and
ASTAMIDS as part of FCS.

Funding and Contract Data
The President’s Budget for FY 2009 provided a total of $206.4 million in funding to
develop and procure ASTAMIDS, including $144.3 million in research, development,
test, and evaluation funds and $62.1 million for procurement of hardware, including
21 ASTAMIDS airborne payloads for installation on Fire Scout unmanned aerial
vehicles.

Overall Assessment
The Product Manager, Countermine and Explosive Ordinance Disposal and the Project
Manager, CCS were adequately readying ASTAMIDS for the LRIP decision in the areas
of engineering and manufacturing, test and evaluation, and contracting. However,
additional management attention was needed in defining the current working
relationships between the ASTAMIDS and the FCS programs (Finding A), defining
capability requirements (Finding B), and establishing Defense Contract Management
Agency Support responsibilities (Finding C).




                                           2
Finding A. Updating Memoranda of
Agreement to Define the Current Working
Relationships Between the ASTAMIDS and
the FCS Programs
The Army PEO and the program, project, and product managers (Army acquisition
managers) involved with the ASTAMIDS program had not ensured the currency and
completeness of the MOAs defining the working relationships necessary for developing
ASTAMIDS as a complementary program to the FCS program. Specifically, the
2004 MOA that the PEO for Ammunition and the Program Manager, FCS (Brigade
Combat Team) made for collaboration between FCS and complementary programs,
including ASTAMIDS, did not require the parties to perform periodic reviews and
updates to ensure that the MOA stayed relevant and current. Also, a draft update to this
MOA did not include procedures for elevating and resolving issues that affected
development of the FCS and the complementary programs. Further, the 2005 working-
level MOA between the project and product managers involved in developing,
integrating, and testing ASTAMIDS did not:

   •   include or reference specific procedures for timely elevating and resolving issues
       between their management chains;
   •   include the Product Manager, Future Force Unmanned Aircraft Systems
       (FF UAS), who was responsible for integrating ASTAMIDS on the Fire Scout
       Unmanned Aerial Vehicle, as a participant in the MOA; or
   •   define the current role of the Product Manager, Robotic and Unmanned Sensors
       (RUS) in the ASTAMIDS development.

These conditions occurred because the PEO for Ammunition and the other Army
acquisition managers had not completed updating the 2004 MOA and had not started
updating the 2005 MOA to implement a May 2007 request from the Military Deputy to
the Assistant Secretary of the Army (Acquisition, Logistics, and Technology) to update
MOAs for the FCS complementary programs. By updating the MOAs to fully define the
current working relationships between all relevant acquisition management chains, the
Army acquisition managers would be better able to synchronize the ASTAMIDS
program technical, schedule, and funding requirements with FCS schedule and fielding
requirements.

Policies, Procedures, and Guidance
Specifically, on April 1, 2004, in testimony to the House Armed Services Committee
regarding the FCS program, the Military Deputy to the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) stated that, for FCS to succeed, the Army
needed to synchronize the development timelines of existing (complementary) programs
with FCS development and fielding. He then identified synchronizing the FCS and
complementary system timelines as a top priority. The military deputy further stated that


                                            3
the Army was using MOAs between the Program Manager, FCS (Brigade Combat Team)
and other Army acquisition managers to establish responsibilities and processes for
developing, testing, and fielding FCS. At the time of his testimony, he stated that the
Army had 19 MOAs between PEOs and 44 MOAs between program managers for the
FCS program to provide a basis for cooperative technical and acquisition efforts between
the PEOs and program managers.

To help manage the FCS relationships with complementary programs, the Program
Manager, FCS (Brigade Combat Team) established an FCS Complementary Program
Lead staff position. The duties of that staff position included:

   •   acting as a focal point between the FCS program and the PEOs and managers of
       complementary programs,
   •   developing MOAs with PEOs and program managers to establish working
       relationships,
   •   developing and overseeing an FCS program-wide complementary program
       management and integration strategy, and
   •   facilitating resolution of integration issues and concerns affecting the
       complementary programs.

During the audit, the following two MOAs addressed responsibilities and processes
related to developing, testing, and fielding ASTAMIDS:

   •   the MOA for “Collaboration in Support of the Program Management of FCS
       Planning and Execution,” April 19, 2004 (the Collaboration MOA), between the
       PEO for Ground Combat Systems (now Program Manager, FCS [Brigade Combat
       Team]) and the PEO for Ammunition, established responsibilities for integrating
       complementary programs, including ASTAMIDS, as part of FCS; and
   •   the MOA for the “Development, Integration, and Testing of the ASTAMIDS,”
       May 2005 (the ASTAMIDS MOA), between the Project Manager, CCS and the
       Product Managers for RUS and for FCS (Brigade Combat Team) Intelligence
       Surveillance and Reconnaissance (ISR) focused specifically on responsibilities for
       developing ASTAMIDS as a complementary program to FCS.

In addition to the above MOAs, the subordinate MOA for “Collaboration for the
Integration of GSTAMIDS, HSTAMIDS, and ASTAMIDS with the FCS Unit of Action
(UA),” June 4, 2004, established the roles and responsibilities of the signatories for
ensuring integration of three complementary programs, including ASTAMIDS, with the
FCS program during the systems development and demonstration phase of the acquisition
process.

Ensuring Currency and Completeness of MOAs
The Army acquisition managers had not ensured the currency and completeness of the
MOAs that define the working relationships necessary for developing ASTAMIDS as a
complementary program to the FCS program. This condition occurred because the Army
acquisition managers had not completed updating the 2004 Collaboration MOA and had


                                           4
not started updating the 2005 ASTAMIDS MOA to implement a request from the
Military Deputy to the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) to update MOAs for the FCS complementary programs. The military
deputy made this request at the FCS Board of Directors meeting held May 22–23, 2007,
concerning how to ensure that complementary program requirements stayed integrated
with the FCS. On June 27, 2007, the military deputy followed up his verbal request for
updating the MOAs with a written message to his acquisition managers asking for MOA
updates. In his message, he emphasized that a clear understanding of the needs and
expectations of the FCS program and the appropriate agreements between the FCS
program office and the PEOs and subordinate managers was critical to successfully
integrating the complementary programs into the FCS program. The military deputy also
stated that timely MOA updates were important because the MOAs were the foundation
of a cooperative technical and acquisition effort between the signing parties. He further
stated that: “It is my firm belief that without the expeditious staffing and approving of
these key agreements that the impact on both the FCS program and the complementary
programs will not be positive.”

Specific shortfalls in the two current ASTAMID-related MOAs and the Army’s
completed and planned corrective actions are discussed below.

Collaboration Memorandum of Agreement
The 2004 Collaboration MOA, between the Program Manager, FCS (Brigade Combat
Team) and the PEO for Ammunition, did not require the parties to perform periodic
reviews and updates to ensure that the MOA stayed relevant and current. However, the
Collaboration MOA signatories had a draft update to the Collaboration MOA that
included a provision for performing annual reviews and updates of the MOA. In
addition, the draft included the following changes that should improve the effectiveness
and currency of the MOA:

   •   establishing appendices that delineated specific responsibilities between the
       Program Manager, FCS (Brigade Combat Team) and subordinate Army
       acquisition managers for nine complementary programs, including ASTAMIDS,
       and that eliminated the need for five outdated subordinate MOAs;
   •   managing items to be exchanged between the complementary program and FCS,
       including documents, hardware, software, integration efforts, and contractor-
       acquired property through the FCS Key Item Tracking System; and
   •   updating office names to align with the organizational structure.




                                            5
While the draft update to the Collaboration MOA did include significant and positive
changes, it did not include or reference specific procedures for resolving or elevating
issues that affected the development of the complementary programs and FCS. In
addition, the draft update to the Collaboration MOA would cancel the subordinate MOA
for “Collaboration for the Integration of GSTAMIDS, HSTAMIDS, and ASTAMIDS
with the FCS Unit of Action (UA),” June 4, 2004, which did include procedures for
resolving or elevating issues. The existing 2004 Collaboration MOA did document
agreed-to mechanisms for elevating and resolving disputes and disagreements between
the MOA parties.

When we staffed the finding in April 2008, the Deputy Program Manager, FCS (Brigade
Combat Team) Program, Platforms stated that the outdated MOA had not prevented
Army acquisition managers from effectively using integrated product teams to execute
the FCS and ASTAMIDS programs. However, he acknowledged that updating the MOA
would further enhance cooperation and teamwork between the acquisition management
chains. The audit team also suggested that the draft Collaboration MOA be revised to
include a reference or link to the processes and procedures for managing complementary
programs that The Boeing Company, the lead systems integrator for FCS, had
documented in the “Complementary Programs Management Control Plan” (the Control
Plan), September 13, 2007, and in the draft user reference guide, “Complementary
Programs Gap Resolution User Reference Guide,” February 20, 2008 (the draft
Reference Guide). As a result of our discussion, the Deputy Program Manager, FCS
(Brigade Combat Team), Platforms and the FCS Complementary Program Lead updated
the draft MOA to include three new appendices. The new appendices, which were based
on Boeing’s Control Plan and draft Reference Guide, address establishing interfaces
between FCS and complementary programs, and identifying and resolving funding,
schedule, and technical gaps between the FCS requirements and the complementary
programs. Together, the procedures in the three appendices should provide a
standardized approach for resolving disputes and disagreements between the acquisition
management chains of the FCS and the complementary programs, including
ASTAMIDS.

We believe that the updated draft MOA, when implemented, will provide a basis for
cooperative technical, resource management, scheduling, and acquisition efforts between
the Program Manager, FCS (Brigade Combat Team) and the PEO for Ammunition. The
enhanced cooperative efforts documented in the draft MOA will help ensure that the nine
complementary programs, including ASTAMIDS, satisfactorily meet the functional
requirements allocated to them by the FCS program.




                                           6
ASTAMIDS Memorandum of Agreement
The ASTAMIDS MOA between the Project Manager, CCS and the Product Managers for
RUS and FCS (Brigade Combat Team) ISR did not:

   •   include or reference specific procedures for timely resolution or elevation of
       issues that affected the three program offices;
   •   include the Product Manager, FF UAS, who was responsible for integrating
       ASTAMIDS on the Fire Scout Unmanned Aerial Vehicle, as a participant in the
       ASTAMIDS development; or
   •   define the current role of the Product Manager, RUS regarding reconnaissance,
       surveillance, and target acquisition development issues affecting the ASTAMIDS
       program.

While the May 2005 ASTAMIDS MOA included a requirement for annual review and
update, the signatories had not begun an update as of April 2008.

During staffing of the finding, each of the signatory offices acknowledged the importance
of updating the ASTAMIDS MOA. Specifically, the Project Manager, CCS and the
Product Manager, FCS (Brigade Combat Team) ISR agreed that the MOA needed
updating to provide an understanding of how their offices work together. In addition, the
Product Manager, FF UAS agreed that his office should be a signatory and a participant
in the ASTAMIDS MOA because his office was responsible for integrating the
ASTAMIDS payload on the Fire Scout. Also, the Product Manager, RUS stated that the
ASTAMIDS and FCS programs had evolved since the MOA was signed in May 2005
and that the MOA now overstated the responsibilities of his office. Specifically, he stated
that his office was not involved in contracting, logistics, test and evaluation, support,
production planning, fielding, or training, as documented in the MOA. The Product
Manager, RUS emphasized that the current role of his office was to provide advice to the
other MOA signatories regarding reconnaissance, surveillance, and target acquisition
issues.

We also met with the Army Deputy Assistant Secretary for Acquisition and Systems
Management, in the Office of the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology), who stated that he agreed that Army acquisition managers
needed to take the time to update the Collaboration and ASTAMIDS MOAs because
people and personalities change.




                                            7
Benefits of Updating the Collaboration and ASTAMIDS
Memoranda of Agreement
By updating the Collaboration and ASTAMIDS MOAs to provide current and complete
definition of the working relationships between all relevant acquisition management
chains, PEOs and program managers should be better able to synchronize the
ASTAMIDS program technical, schedule, and funding requirements with the FCS
schedule and fielding requirements. Fully defined working relationships, to include
standardized processes for closing programmatic gaps, are critical to the success of the
ASTAMIDS and FCS programs. The ASTAMIDS program office planned to hold an
LRIP decision program review in March 2009. However, Army acquisition officials
were still working to resolve multiple technical and schedule gaps involving ASTAMIDS
as a complementary program to the FCS program. Examples of unresolved technical and
schedule gaps are discussed below.

Technical Gaps
Technical gaps between the ASTAMIDS and FCS programs included system reliability
requirements, information processing between the systems, and the Fire Scout start-up
sequence.

   •   Reliability: The ASTAMIDS contractor was working towards contract reliability
       specifications for mean-time-between-system-aborts (breakdowns) of a minimum
       of 288 hours, with 576 hours desired. The FCS reliability requirement for the
       reconnaissance, surveillance, and target acquisition mission was 1,100 hours.
   •   Information Processing Environment: The FCS program office needs to further
       define hardware and software operating environments and performance
       requirements for any ASTAMIDS computer software configuration items that
       will be deployed in air and ground assets.
   •   Fire Scout Start-up Sequence: Staff at the CCS program office believed that the
       start-up sequence for the Fire Scout may induce unnecessary electrical and
       thermal shock to the ASTAMIDS payload and adversely affect the ASTAMIDS
       program from meeting the FCS reliability requirements.

Schedule Gaps
A 4-year gap exists between the planned LRIP decision program review for ASTAMIDS
in March 2009 and the planned LRIP decision program review for the Fire Scout in
FY 2013. This condition partially occurred because of a delay in developing the
communication, network, data link, and computer components to link the Fire Scout with
the FCS system-of-systems. As a result, Army acquisition managers are still in the
process of determining how to use the eight LRIP ASTAMIDS units that are planned for
delivery in FYs 2010 and 2011.




                                           8
Recommendations, Client Comments, and Our
Response
A. We recommend that the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology) direct the:

       1. Program Executive Officer for Ammunition and the Program Manager,
Future Combat Systems (Brigade Combat Team) to finalize the revised
memorandum of agreement for “Collaboration in Support of the Program
Management of Future Combat Systems Planning and Execution,” April 19, 2004,
as updated to reference or link to processes and procedures for managing
complementary programs established in the “Complementary Programs
Management Control Plan,” September 13, 2007, and in the draft user reference
guide, “Complementary Programs Gap Resolution User Reference Guide,”
February 20, 2008.

Client Comments
The Deputy for Acquisition and Systems Management, responding for the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology), agreed. He stated that
the PEO for Ammunition and the Program Manager, FCS (Brigade Combat Team)
finalized a revised MOA for “Collaboration in Support of the Program Manager, Future
Combat Systems (BCT)’s Planning and Execution of the Future Combat Systems Program,”
on July 28, 2008. The Deputy stated that the revised MOA includes procedures for
managing complementary programs extracted from the “Complementary Programs
Management Control Plan,” September 13, 2007, as well as procedures from the
appropriate user reference guides that address how the signatories will identify, allocate,
and resolve program gaps. He also stated that the revised MOA requires the signatories
to perform annual reviews of their agreement.

Audit Response
The Deputy for Acquisition and Systems Management’s comments are responsive to the
recommendation. The PEO for Ammunition and the Program Manager, FCS (Brigade
Combat Team) revised MOA of July 28, 2008, incorporates recommended procedures for
managing complementary programs and for identifying, allocating, and resolving
program gaps.

        2. Product Manager, Robotic and Unmanned Sensors; Product Manager,
Future Combat Systems (Brigade Combat Team) Intelligence Surveillance
Reconnaissance; Project Manager, Close Combat Systems; and Product Manager,
Future Force Unmanned Aerial Systems to revise the “Memorandum of Agreement
for the Development, Integration, and Testing of the Airborne Surveillance, Target
Acquisition, and Minefield Detection System,” May 2005, to:

            a. Reference or link to processes and procedures for managing
complementary programs, including timely elevating and resolving issues between


                                             9
their management chains, contained in the “Complementary Programs
Management Control Plan,” September 13, 2007, and in the draft user reference
guide, “Complementary Program Resolution,” February 20, 2008;

              b. Add the Product Manager, Future Force Unmanned Aerial
Systems as a signatory and define his roles and responsibilities for integrating the
Airborne Surveillance, Target Acquisition, and Minefield Detection System on the
Future Combat Systems Class IV MQ-8B Fire Scout Unmanned Aerial Vehicle; and

           c. Define the current role of the Product Manager, Robotic and
Unmanned Sensors for reconnaissance, surveillance, and target acquisition issues.

Client Comments
The Deputy for Acquisition and Systems Management agreed, stating that the PEO for
Ammunition, the Program Manager, FCS (Brigade Combat Team), and the PEO for
Intelligence, Electronic Warfare, and Sensors will oversee the preparation of a working
level agreement addressing all points in the recommendation. The Deputy stated that the
estimated completion date for the working level agreement was August 2009.

Audit Response
The Deputy’s plan for preparing a working level agreement, which will reference
processes and procedures for managing complementary programs and define the
ASTAMIDS-related roles and responsibilities of the Product Managers for Future Force
Unmanned Aerial Systems and for Robotic and Unmanned Sensors, is responsive to the
recommendation.




                                          10
Finding B. Defining Capability Requirements
The Director, Accelerated and Capabilities Developments, U.S. Army Capabilities
Integration Center had not initiated the process to develop the capability production
document (CPD) needed to support the ASTAMIDS LRIP decision program review
planned for March 2009. This condition occurred because the director did not assign a
lead office for developing a CPD after the Army’s decision in May 2004 to add
RSTA/LD capability requirements to the ASTAMIDS mission in support of the FCS
program. A lead office needed to be assigned because the capability requirements for
RSTA/LD and mine surveillance overlap the mission responsibilities of three U.S Army
Training and Doctrine Command (TRADOC) offices. As a result, two of the three
existing operational requirements documents relating to ASTAMIDS did not identify
RSTA/LD capability requirements. The third operational requirements document
provided general, top-level, requirements for RSTA/LD, but it did not provide the
ASTAMIDS program with authoritative, testable capabilities to support the production
and deployment phase of the acquisition process. Without fully defined requirements in a
CPD, the Program Manager, CCS and the project management engineer could not update
the key acquisition planning documents needed to effectively and efficiently plan, fund,
and execute the ASTAMIDS program. Key acquisition planning documents derived
from the CPD needing updating include the acquisition strategy, the acquisition program
baseline, the test and evaluation master plan, and the system engineering plan.

Policies, Procedures, and Guidance for Defining
Capability Requirements
The Commander, Joint Chiefs of Staff Instruction 3170.01F, “Joint Capabilities
Integration and Development System,” May 1, 2007, establishes DoD policies and
procedures for defining system capability requirements through the Joint Capabilities
Integration and Development System.

The Commander, Joint Chiefs of Staff Manual 3170.01C, “Operation of the Joint
Capabilities Integration and Development System,” May 1, 2007, provides guidance and
procedures for implementing the Joint Capabilities Integration and Development System.

Developing the CPD
The Commander, Joint Chiefs of Staff Manual 3170.01C states that the CPD is the
sponsor’s primary means of providing authoritative, testable capabilities for the
production and deployment phase of an acquisition program. The manual further states
that a CPD is finalized after the design readiness review is validated and approved before
the LRIP acquisition decision. Although ASTAMIDS had passed the design readiness
review point in the system development and demonstration phase of the acquisition
process, the Director, Accelerated and Capabilities Developments had not initiated the
process to develop the CPD. In the meantime, the ASTAMIDS project management
engineer was building two prototype ASTAMIDS units, under Systems Engineering and
Integration Spiral 1, for contractor use in flight testing during the fourth quarter of


                                            11
FY 2008 to support the March 2009 LRIP decision program review. Further, on
January 28, 2008, the contracting officer authorized the contractor to begin building
another two ASTAMIDS prototype units for delivery to the Government under Spiral 2.
Because the ASTAMIDS program is only months away from the LRIP decision program
review planned for March 2009, the Director, Accelerated and Capabilities Developments
needs to quickly formulate and execute a plan for CPD development. Our audit
experience has shown that it often takes sponsors a year or more to formulate, validate,
and approve a CPD.

Factors Affecting the Development of the CPD
The delay in developing the CPD occurred because the Director, Accelerated and
Capabilities Developments did not assign a lead office for developing a CPD after the
Army’s decision in May 2004 to add RSTA/LD capability requirements to the
ASTAMIDS mission in support of the FCS program. At the time of our review, the
project management engineer for ASTAMIDS was using the following three operational
requirements documents to identify the ASTAMIDS capability requirements:

   •   “Operational Requirements Document for the Airborne Standoff Minefield
       Detection System,” August 21, 1992 (this document shows what the acronym
       “ASTAMIDS” meant before adding the RSTA/LD capability requirements);
   •   “Brigade/UA Tactical Unmanned Aerial Vehicle (TUAV) Operational
       Requirements Document,” June 24, 2003; and
   •   “Operational Requirements Document for the Future Combat Systems (FCS),”
       July 11, 2006.

In our discussions, the staff members of the Director, Accelerated and Capabilities
Developments stated that they had discussed developing a CPD for ASTAMIDS, but
were uncertain concerning which TRADOC office would take the lead in developing the
CPD. This uncertainty occurred because mission requirements of the ASTAMIDS
program involved the mission responsibilities of TRADOC offices at Fort Huachuca
(intelligence), Fort Leonard Wood (countermine), and Fort Rucker (aviation). The
director’s staff stated that they were working on a briefing to outline a proposed approach
to develop a CPD that had Fort Leonard Wood as the lead office for the CPD.

Effect of Delaying Development of the CPD
As a result of not initiating the development of the CPD, the ASTAMIDS program office
did not have a document that fully defined the ASTAMIDS capability requirements to
support ongoing system development efforts, as well as to support the program decision
concerning readiness of ASTAMIDS for LRIP. Specific limitations of the three
operational requirements documents the Army was using to address system capability
requirements for ASTAMIDS were:

   •   The 1992 operational requirements document for ASTAMIDS did not include
       RSTA/LD missions that were added to the ASTAMIDS contract in April 2005.
       In addition, the 1992 operational requirements document supported the Concept
       Approval Decision for the ASTAMIDS program, which led to the initial system


                                            12
       prototyping for minefield detection. As a result, the 1992 operational
       requirements document did not provide detailed capability requirements as would
       be expected in a CPD to support a production decision.
   •   The June 2003 operational requirements document for the Tactical Unmanned
       Aerial Vehicle supported the decision to enter the ASTAMIDS program into the
       system development and demonstration phase of the acquisition process but did
       not include RSTA/LD capabilities. Additionally, the Army now plans to use the
       Fire Scout unmanned aerial vehicle, rather than the Tactical Unmanned Aerial
       Vehicle, as the platform vehicle for ASTAMIDS.
   •   The July 2006 operational requirements document for the FCS provides general,
       top-level, FCS capability requirements for RSTA/LD, but it did not provide the
       ASTAMIDS program with authoritative, testable capabilities to support the
       production and deployment phase of the acquisition process. The FCS
       operational requirements document is a starting point for defining RSTA/LD
       requirements in the CPD for ASTAMIDS.

Conclusion
Without having defined program requirements in a CPD for the ASTAMIDS program,
the ASTAMIDS project management engineer is not in a position to accurately update or
have updated key program planning documents that are derived from the CPD, which are
needed to effectively and efficiently plan, fund, and execute the program. These
documents include the ASTAMIDS acquisition strategy, the acquisition program
baseline, the test and evaluation master plan, and the system engineering plan.

Client Actions During the Audit
On February 7, 2008, we sent a memorandum to the Commander, U.S. Army Training
and Doctrine Command that discussed the urgent need for TRADOC to begin developing
the CPD for ASTAMIDS to support the LRIP decision program review planned for
March 2009. In response to our memorandum, the Deputy Director, Accelerated and
Capabilities Developments issued the “Memorandum for United States Army Maneuver
Support Center,” March 7, 2008, which directed the Maneuver Support Center to develop
an accelerated document timeline to ensure that the ASTAMIDS CPD is written, staffed,
and approved in time to meet the March 2009 LRIP decision program review. The
deputy director’s memorandum is included in Appendix C. The deputy director’s
direction for an accelerated document timeline for writing, staffing, and approving the
CPD will enable the Army to have an authoritative, testable capability requirements
document for ASTAMIDS in time to support the LRIP decision program review to be
held in March 2009. As a result of the deputy director’s action taken, we are not making
an audit recommendation in this finding.




                                          13
This Page Left Blank Intentionally




               14
Finding C. Establishing Defense Contract
Management Agency Support
Responsibilities
The Project Manager, CCS did not work with the Commander, Defense Contract
Management Agency (DCMA) Aircraft Integrated Maintenance Operations (AIMO),
Melbourne, Florida, to develop and negotiate a performance-based management MOA.
The performance-based management MOA was necessary to define the DCMA AIMO
support required to attain the project manager’s desired program outcomes for the
ASTAMIDS program. This condition occurred because the project management
engineer, as a representative of the Project Manager, CCS, was not responsive to
invitations from the Program Integrator, DCMA AIMO to develop and negotiate a
performance-based management MOA. As a result, DCMA did not have the information
and agreement needed to provide the project management engineer and Project Manager,
CCS with effective oversight of contractor efforts during the systems development and
demonstration phase for the ASTAMIDS program. Specifically, the commander could
not effectively plan and execute DCMA surveillance activities to support desired
program management outcomes for the ASTAMIDS program, to include establishing
letters of delegation (LOD) with other DCMA contract management offices to provide
surveillance of the four major ASTAMIDS subcontractors.

Regulations and Guidance for Defense Contract
Management Agency Support
Federal and DCMA regulations and guidance define the DCMA role in supporting the
program manager’s development of weapon systems.

Federal Acquisition Regulation
Federal Acquisition Regulation 42.302, “Contract Administration Functions,” specifies
the contract administration functions that Federal organizations normally delegate to
contract administration offices. The contract administration functions include program
status reporting; assessing contractor compliance with contract terms; surveilling
contractor engineering efforts and management systems; and reviewing and evaluating
the contractor’s logistics support, maintenance, and modification programs.

DCMA Policy and Guidance
The DCMA Instruction and Guidebook provides mandatory policy and guidance for
performing the contract management functions listed in the Federal Acquisition
Regulation. Specifically, it provides the DCMA staff with direction for performing




                                           15
outcome-based program management support for DoD acquisition programs, including
direction for establishing:

   •   MOAs with program managers that focus on desired program outcomes,
   •   surveillance plans detailing the tasks necessary to meet the provisions of the
       MOA, and
   •   program support teams led by program integrators to carry out the tasks
       documented in the surveillance plan.

Establishing the Memorandum of Agreement
DCMA staff advised that a performance-based management MOA was not established
between the Project Manager, CCS and the Commander, DCMA AIMO. The DCMA
Instruction and Guidebook requires that DCMA staff establish performance-based
management MOAs with program managers that provide the following mandatory
information:

   •   Customer Outcomes: Annex A documents customer (program manager) priorities
       for outcomes and for DCMA performance commitments.
   •   Cause-and-Effect Analysis: Annex B is a cause-and-effect analysis that links
       each metric and standard in the body of the MOA to applicable desired customer
       outcomes.
   •   Activity That DCMA Does Not Plan to Engage In or Plans to Deemphasize:
       Annex C clarifies what the MOA does not cover or include in the metrics
       describing DCMA’s performance commitments. Annex C also documents any
       contract administration functions specified in Federal Acquisition Regulation
       42.302 that DCMA does not plan to provide support for under the MOA.

Factors Affecting Establishment of an MOA
The Program Integrator, DCMA AIMO stated that the project management engineer for
ASTAMIDS was not responsive to his invitations during the period from January through
November 2007 to coordinate in developing and negotiating a performance-based
management MOA. In response, the project management engineer stated that his office
did sign an MOA in March 2004 and sent it to DCMA AIMO by e-mail. However, the
program integrator stated that his office had not seen the March 2004 MOA and that the
MOA would not have been a performance-based MOA as required by the DCMA
Instruction and Guidebook since May 2004. The Project Manager, CCS and the Deputy
PEO for Ammunition stated that they were unaware that a performance-based
management MOA was not established between the Project Manager, CCS and the
Commander, DCMA AIMO.




                                            16
Need for Establishing an MOA
Without a focused and comprehensive performance-based management MOA, DCMA
did not have the information and agreement needed to provide the project management
engineer and Project Manager, CCS with effective oversight of contractor progress
during the systems development and demonstration phase of the acquisition process for
the ASTAMIDS program. Specifically, the commander could not effectively plan and
execute DCMA surveillance activities to support desired program management outcomes
for the ASTAMIDS program, to include establishing LODs with other DCMA contract
management offices to provide surveillance of the four major ASTAMIDS
subcontractors. While DCMA staff stated that they can establish an LOD without an
MOA in place, having an MOA documenting the program manager’s desired program
outcomes before establishing the LOD helps ensure that the work DCMA performs under
the LOD focuses on the needs of the program manager. Because the DCMA AIMO staff
had not established LODs for subcontractor surveillance, the Program Integrator,
DCMA AIMO indicated that his office had to rely on the prime contractor to pass on
critical information concerning these four major ASTAMIDS subcontractors:

   •   DRS Technologies, Inc., was developing the reconnaissance, surveillance, and
       target acquisition capability for ASTAMIDS. The contractor allocated
       $23.8 million to DRS to develop this capability.
   •   Fibertek, Inc., was developing a compact eye-safe laser rangefinder/designator.
       The contractor allocated $6.7 million to Fibertek to develop the laser
       rangefinder/designator.
   •   Apogen Technologies was developing the camera and lens for ASTAMIDS. The
       contractor allocated $10.6 million to Apogen to develop the camera and lens.
   •   ARETE Associates was developing the software for ASTAMIDS. The contractor
       allocated $2.7 million to ARETE to develop the software.

While the Program Integrator, DCMA AIMO acknowledged having a working
relationship with the Project Manager, CCS, he emphasized that, without an MOA with
the ASTAMIDS program office, the percentage of DCMA resources used to support
ASTAMIDS was much lower than the resources used for programs that had MOAs in
place.

Client Actions During the Audit
In response to audit concerns, the Project Manager, CCS and the Commander,
DCMA AIMO prepared and approved a performance-based management MOA,
“Performance-Based Management (PBM) Memorandum of Agreement (MOA) between
Product Manager, Countermine & EOD for Airborne Surveillance, Target Acquisition
and Minefield Detection System (ASTAMIDS) Program and Defense Contract
Management Agency Aircraft Integrated Maintenance Operations – Melbourne, FL,”
April 1, 2008. We reviewed the approved MOA and determined that it adhered to the
mandatory policy and guidance in the DCMA Instruction and Guidebook. Specifically,
the approved MOA includes the mandatory annexes for customer outcomes, cause and


                                         17
effect analysis, and activities DCMA does not plan to engage in or plans to deemphasize.
Additionally, the approved MOA includes an annex documenting the strategies that
DCMA plans to use for surveillance of contractor activities. This annex includes
surveillance activities planned for the following DCMA functional specialists: program
integrator, engineering, earned value management, logistics management, property
administration, industrial planning, quality control, software acquisition, business
management, contracting, and supply chain integration. Further, the annex states that the
frequency and intensity of DCMA surveillance will vary depending on the assigned risk
of the process, phase of the program, and activities the contractor is currently performing.
After approval of the MOA, DCMA AIMO issued an LOD on June 26, 2008, to DCMA,
Santa Ana, California, to perform surveillance of DRS Technologies, Inc. Implemen-
tation of the approved MOA, along with the LOD, should enable DCMA to provide the
project management engineer for ASTAMIDS and the Project Manager, CCS with
effective contractor surveillance information as the ASTAMIDS program progresses
towards the LRIP decision. Since corrective action has been taken, we are not making an
audit recommendation in this finding.




                                            18
Appendix A. Scope and Methodology
We conducted this performance audit from August 2007 through June 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

During the audit, we evaluated whether management was effectively developing and
readying the program for the low-rate initial production phase of the acquisition process.
We reviewed requirements and capabilities, testing, systems engineering, contracting,
acquisition strategy, and funding documents dated from August 1992 through June 2008.
We interviewed staff from the offices of the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology); the Commander, Army Test and Evaluation
Command; the Program Executive Officer for Ammunition; the Program Manager,
Future Combat Systems (Brigade Combat Team); the Project Manager, Close Combat
Systems; the Product Manager, Robotic and Unmanned Sensors; the Product Manager,
Future Force Unmanned Aircraft Systems; and the Product Manager, Brigade Combat
Team (Intelligence, Surveillance, and Reconnaissance).

Review of Internal Controls
We determined that a material internal control weakness in the management of
ASTAMIDS existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. The DoD 5000 series of guidance requires
acquisition managers to exercise discretion and prudent business judgment in structuring
tailored, responsive, and innovative programs. Planning and executing the ASTAMIDS
program as a complementary system to the Army FCS program without having up-to-
date and complete MOAs between applicable command chains, without having the user
fully define system capability requirements, and without using the program surveillance
resources of the Defense Contract Management Agency (DCMA) efficiently and
effectively comprise less than prudent business practices. Implementing our
recommendations will improve internal controls by ensuring that the Army more
effectively and efficiently readies the ASTAMIDS program for LRIP. We will provide a
copy of this report to the senior Army official responsible for internal controls in the
Department of the Army.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
Two electrical engineers and one computer engineer from the Electronics Engineering
and Information Technology Branches, Technical Assessment Directorate, Policy and




                                            19
Oversight, Department of Defense Office of Inspector General assisted in the audit. The
engineers evaluated and reviewed the ASTAMIDS software, systems engineering, and
other acquisition-planning-related documentation.

Prior Coverage
No prior coverage has been conducted on the overall management of the ASTAMIDS
program during the last 5 years.




                                          20
Appendix B. Background Information
The following paragraphs provide information on the program history and system
description for ASTAMIDS.

Program History
On November 5, 2002, the Program Executive Officer for Ammunition, the Army
milestone decision authority for the ASTAMIDS program, approved the program for
entry into the system development and demonstration phase of the acquisition process.
During the summer of 2003, the FCS program office staff recognized that ASTAMIDS
could meet the FCS operational requirements for RSTA/LD. Accordingly, on
March 31, 2004, the FCS Council of Colonels designated ASTAMIDS as a
complementary program to the FCS because the ASTAMIDS minefield and obstacle
detection capability could also satisfy the FCS countermine capability requirements
identified in the FCS operational requirements document. On April 1, 2005, the Army
Communications and Electronics Command issued modification 18 to contract DAAB15-
03-C-0013, the ASTAMIDS development contract, which added the RSTA/LD sensor
requirements to the contract and increased the contract value by $24.1 million.

System Description
Each ASTAMIDS unit consists of two subsystems: the airborne payload and the tactical
ground segment.

The Airborne Payload
The Airborne Payload subsystem consists of six equipment groups. Descriptions of each
equipment group follow.

    •                         *∗                                 *
                              *                                              *
                              *                                              *
                              *                                              *
                              *                                              *
                              *                                              *
                              *                                              *
    •                         *                                              *
    •                         *                                   *                     *
        *
                              *                                              *

*
              *                                  *                                  *
                              *                                   *
              *                                  *                                  *
                               *                                 *.
∗
  Freedom of Information Act Exemption 4, which includes trade secrets or commercial or financial
information, as stated in DoD 5400.7-R, “Freedom of Information Act,” September 1998.


                                                  21
                              *                                              *
                              *                                              *
                              *                                  *
    •                         *                                   *
                              *                                              *
    •                         *                                              *
                              *                                              *
                              *                                              *
    •                         *                                              *
                              *                                              *
                              *                                   *

Figure B-1 on the next page shows the external design of the airborne payload and
Figure B-2 shows the airborne payload mounted on the Fire Scout.

The Tactical Ground Segment
              *∗                                 *                                  *
                              *                                   *
              *                                  *                                  *
                              *                                   *
              *                                  *                                  *
                              *                                   *
              *                                  *                                  *




∗
  Freedom of Information Act Exemption 4, which includes trade secrets or commercial or financial
information, as stated in DoD 5400.7-R, “Freedom of Information Act,” September 1998.


                                                  22
Figure B-1. The Payload Design*∗




Figure B-2. ∗The Payload Mounted on the Fire Scout Unmanned Aerial Vehicle*

∗
  Freedom of Information Act Exemption 4, which includes trade secrets or commercial or financial
information, as stated in DoD 5400.7-R, “Freedom of Information Act,” September 1998.



                                                  23
Appendix C. Army Training and Doctrine
Command Client Actions to Define Capability
Requirements




                     24
Department of the Army Comments




                  Click to add JPEG file




                                 25
Click to add JPEG file




               26
Click to add JPEG file




               27
Defense Contract Management Agency Comments




                 Click to add JPEG file




                                28
                           Final Report
                            Reference




                         Pages 21-22




Click to add JPEG file




               29
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
John E. Meling
Harold C. James
Andrew D. Greene
Douglas W. Slaughter
Steven P. Mazur
Caryn M. Chambers
Victoria P. Tang
Jaime A. Bobbio
Charles S. Dekle
Christopher J. Jamieson
Meredith H. Johnson
